0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Petition for Writ of Certiorari in Chi
Ping Patrick Ho, a/k/a Patrick C.P. Ho v. United
States, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
service and e-mail to the following parties listed below,
this 26th day of May, 2021:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Benjamin Rosenberg
Counsel of Record
Shriram Harid
Dechert LLP
Three Bryant Park
1095 Avenue of the Americas
New York, New York 10036
(212) 698-3500
benjamin.rosenberg@dechert.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 26, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

~

~t).

Notary Public
[seal]

Eto a

c}(,

I

i~~
~

